                    DEPARTMENT OF HEALTH AND HUMAN SERVICES


                OFFICE OF INSPECTOR GENERA.L
                                     WASHINGTON, DC 2020 1



                                        MAR 622012
TO: 	          Mary K. Wakefield, Ph.D., R:N.
               Administrator
               Health Resources and Services Administration

                              /S/
FROM:          Stuart Wright.
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Quality Assurance and Care Provided at
           HRSA-Funded Health Centers, OEI-09-06-00420


This memorandum report provides information about the extent to which health centers
maintained quality assurance programs and health center patients received primary health
services in four areas: preventive health exams, vaccinations, referrals for specialized
treatment, and dental services. It also examines the Health Resources and Services
Administration's (HRSA) oversight of the required primary health services in health
centers.

SUMMARY

The Public Health Service Act authorizes HRSA to award grants to organizations that
provide care in medically underserved urban or rural areas or to medically underserved
populations. Reflecting an increased Federal investment, the number ofheaIth center
patients grew from 10.3 million in fiscal year (FY) 2001 to 17.1 million in FY 2008.
Although health center requirements specify which services health centers must make
available to patients, they do not establish specific quality standards for these services.
We collected information about the quality assurance programs for a sample of
147 health center grantees. To examine the required primary health services, we
contracted with medical reviewers to assess medical records for a sample of 448 health
center patients (from the same 147 health center grantees) who had at least 2 patient
encounters between January 1, 2006, and December 31, 2007, including at least one
encounter in the last 6 months of2007. Finally, we held several meetings and calls with
HRSA staff, including staff from the Bureau of Primary Health Care and the Office of
Performance Review, to assess HRSA oversight activities. We found that almost all
health centers had quality assurance programs. However, insufficient documentation
prevented detailed assessments of some medical records. Health services, generally,
Page 2 – Mary K Wakefield, Ph.D., R.N.


were appropriate for most health center patients. During the period of our review,
HRSA’s oversight and review activities provided limited information about the extent to
which individual health center patients received required primary health services. HRSA
agreed with each of our four recommendations. We recommend that HRSA (1) specify
what elements should be included in quality assurance programs and, in particular,
provide more guidance about how grantees conduct their periodic assessments of
services; (2) provide more specific guidance concerning what information is required in
patient records at health centers; (3) provide more specificity about patients’ receipt of
required primary health services; and (4) establish procedures to independently assess
patients’ receipt of primary health services and the adequacy of patients’ records.

BACKGROUND

The importance of ensuring the quality of care in health centers funded by HRSA is
growing with the increases in Federal investment in health centers and numbers of
patients served. In 1975, Congress authorized funding for neighborhood health centers to
provide medically underserved communities health and social services. The Health
Centers Consolidation Act of 1996 1 amended the Public Health Service Act (the PHS
Act) 2 to merge separate authorities for community, migrant, homeless, and public
housing health centers into the Consolidated Health Centers program. The PHS Act
authorizes HRSA to award grants to organizations that provide care in medically
underserved urban or rural areas or to medically underserved populations. 3 FY 2002
marked the start of a multiyear effort to expand the health center program with a goal of
doubling the patient population within 5 years. Reflecting the increased Federal
investment, the number of health center patients grew from 10.3 million in FY 2001 to
17.1 million in FY 2008. 4

The Federal investment in health centers continues to increase. Health centers received
$2 billion through the American Recovery and Reinvestment Act of 2009 to expand health
center capacity and support capital improvements, including the implementation of


1
  P.L. 104-299.
2
  Section 330 (codified at 42 U.S.C. § 254b).
3
  Pursuant to 42 U.S.C. § 254b, a medically underserved population includes the population of an urban or
rural area that has been designated by the Secretary of Health and Human Services (HHS) as an area with a
shortage of personal health services. It also may include a population group designated as having a
shortage of these services, such as migratory and seasonal agricultural workers, homeless individuals, and
residents of public housing.
4
  HHS, Fiscal Year 2011, Health Resources and Services Administration—Justification of Estimates for the
Appropriations Committee. Accessed at http://hrsa.gov/about/pdf/budgetjust2011.pdf on August 4, 2010.


OEI-09-06-00420          Quality Assurance and Care Provided at Health Centers
Page 3 – Mary K Wakefield, Ph.D., R.N.


electronic health records. 5, 6 In FY 2010, the Patient Protection and Affordable Care Act of
2010 (ACA) provided a total of $11 billion in new funding for community health centers
over the 5-year period beginning in FY 2011. Of this, $9.5 billion is for patient services
and centers’ operations. The remaining $1.5 billion is for health center construction and
renovation. 7

Health Center Quality Assurance and Review Requirements
Health centers receiving grants from HHS must comply with monitoring and reporting
requirements established by the awarding HHS agency. 8, 9 Health centers are required to
provide patients with access to certain required primary health services and to maintain a
quality assurance program. Through required quality assurance programs, the grantee
assumes the primary responsibility for ensuring quality of care.


Primary Health Service Requirements. Health center service requirements address the
availability and provision of care in health centers. Health center requirements fall under
four broad areas: need, services, management and finance, and governance. 10
Requirements related to services outline the services that health centers must offer to
patients and to access issues, such as the availability of staff and health center hours.
Health centers must provide certain required primary health services either directly or
through contracts or cooperative arrangements with other health care providers. 11 Although
health center requirements specify broad categories of primary health services that health
centers must offer to patients, they do not establish specific standards for these services, nor


5
  P.L. 111-5, Division A Title VIII (Feb. 17, 2009).
6
  HHS, American Recovery and Reinvestment Act—Strengthening Community Healthcare Services.
Accessed at http://www.hhs.gov/recovery/reports/plans/healthcentersservices.pdf on September 11, 2009.
7
  P.L. 111-148, as amended by the Health Care and Education Reconciliation Act of 2010 (P.L. 111-152);
see, e.g., §§ 5601, 10503.
8
  45 CFR § 74.51 and 42 U.S.C. 254b(k)(3)(I)(ii).
9
  Furthermore, pursuant to 42 U.S.C. 254b(k)(3)(I)(ii), health centers must develop procedures for
compiling and reporting statistics relating to the costs of operations; the patterns of use of their services; the
availability, accessibility, and acceptability of their services; and such other matters that the Secretary of
HHS may require.
10
   These requirements are intended to ensure that (1) health centers’ target population or area is otherwise
medically underserved (need); (2) required health services are available, provided by the appropriate staff,
and provided within the context of a quality assurance program (services); (3) appropriate management,
billing, budget, and data systems are in place (management and finance); and (4) the composition of the
board and the conflict-of-interest policies are appropriate (governance). These requirements are found in
42 U.S.C. § 254b, 42 CFR pt. 51c, 42 CFR §§ 56.201–56.604, and 45 CFR pt. 74. A more detailed
summary of health center requirements was accessed at http://bphc.hrsa.gov/about/requirements/index.html
on July 1, 2011.
11
   42 U.S.C. § 254b(a)(1).


OEI-09-06-00420            Quality Assurance and Care Provided at Health Centers
Page 4 – Mary K Wakefield, Ph.D., R.N.


do they list each individual service that patients might need. However, health centers are
required to assess the credentials of their health care practitioners to ensure the adequacy of
their training and skills. 12 Some of the primary health services that health centers must
offer 13 include:
•    basic health services, consisting of
     o health services related to family medicine, internal medicine, pediatrics, and
       obstetrics;
     o diagnostic laboratory and radiologic services; and
     o preventive services such as prenatal and perinatal services,
       well-child services, immunizations against vaccine-preventable diseases, and
       preventive dental services.
•    referrals to providers of medical services, including
     o specialty referral when medically indicated and
         other health-related services (including substance abuse and mental health
         services). 14
Quality Assurance Program. Health center grantees are required to maintain a quality
assurance program, which provides an organizational structure that supports the provision
of high-quality patient care. 15 Quality assurance programs must provide for periodic
assessments of utilization and quality of health services. These assessments must (1) be
conducted by physicians or other licensed professionals under the supervision of
physicians, (2) be based on the systematic collection and evaluation of patient records, 16
and (3) identify and document needed changes and the results of such changes. 17




12
   HRSA policy requires all health centers to assess the credentials of each licensed or certified health care
practitioner. This assessment must “meet the requirement of 42 U.S.C.§233(h)(2) that calls for review and
verification of ‘the professional credentials, references, claims history, fitness, professional review
organization findings, and license status of its physicians and other licensed or certified health care
practitioners.’ ” Credentialing & Privileging of Health Center Practitioners, Policy Information Notice
2001-6. Accessed at http://bphc.hrsa.gov/policiesregulations/policies/pin200116.html on August 29, 2011.
13
   42 U.S.C. § 254b(a)(1). Health centers must provide these services either through the staff and
supporting resources of the center or through contracts or cooperative arrangements.
14
   42 U.S.C. § 254b (b)(1)(A).
15
   42 CFR § 51c.303(c), 42 CFR 56.303(c), and 42 U.S.C. 254b(k)(3)C).
16
   Pursuant to 42 U.S.C. 254b(n), health centers are required to establish and maintain such records as the
Secretary of HHS shall require.
17
   42 CFR § 51c.303(c), 42 CFR 56.303(c), and 42 U.S.C. 254b(k)(3)C).


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 5 – Mary K Wakefield, Ph.D., R.N.


HRSA Oversight
Grantees are required to have in place a process for compiling and reporting to HRSA
information relating to costs, service utilization, and the “availability, accessibility, and
acceptability of [their] services.” 18 HRSA monitors and assesses grantees’ performance
through Uniform Data System (UDS) reporting, grant reviews, and performance reviews.


UDS Reporting. HRSA requires that health center grantees annually submit a core set of
data to HRSA’s UDS. 19 The UDS includes information at the level of each health center
about patient encounters, staffing, and revenue and expenses; HRSA can use this
information to monitor and assess grantee performance and to report on overall trends. 20, 21
In 2007 (the period covered by this review), health centers were required to report two
measures of grant performance (number of patients served and financial stability) and at
least one measure of clinical performance. Each grantee selected its clinical measure from
a standardized set of 14 clinical measures (e.g., percentage of pregnant women beginning
prenatal care by end of first trimester). Each of these clinical measures—listed in Appendix
A—pertains to a particular subgroup (e.g., pregnant women, patients with diabetes) within
the general patient population typically served by health centers. Grantees’ performance on
the one selected clinical measure was examined by HRSA during onsite performance
reviews (discussed in the section below on grant and performance reviews).


HRSA has modified requirements related to reporting UDS performance measures since
2007, the period of our review. For 2011 UDS reporting, all health center grantees are
required to report data on 11 standardized clinical measures, 2 additional clinical
measures related to behavioral and oral health, and 5 standardized financial measures, as
listed in Appendix B. 22


Grant and Performance Reviews. HRSA annually assesses health center grantees’
compliance with health center requirements. 23, 24 HRSA reviews grantees’ Health Care and
Business Plans (plans) to evaluate their expected and actual grant performance. In their

18
   42 U.S.C. § 254b(k)(3)(I)(ii).
19
   Ibid.
20
   Health Center Data. Accessed at http://www.bphc.hrsa.gov/uds/ on May 6, 2010.
21
   Introduction to the 2007 Uniform Data System Reporting Manual. Accessed at
http://bphc.hrsa.gov/healthcenterdatastatistics/reporting/2007udsreportingmanual.pdf on February 15, 2012.
22
    Clinical and Financial Performance Measures. Updated June 20, 2011. Accessed at
http://bphc.hrsa.gov/policiesregulations/performancemeasures/updatedfy2012measures.pdf on August 30,
2011.
23
   Pursuant to 42 CFR §§ 51c.305 and 56.305.
24
   Pursuant to 42 CFR §§ 51c.303 and 56.303.


OEI-09-06-00420          Quality Assurance and Care Provided at Health Centers
Page 6 – Mary K. Wakefield, Ph.D., R.N


plans, grantees outline their clinical and management goals (e.g., health outcomes, services
offered, and recruitment activities) and the objectives; key action steps; expected outcomes;
data, evaluation and measurement; and points of contact related to these goals. HRSA
reviews these plans to evaluate the extent to which prospective grantees will be able to meet
program requirements and current grantees have achieved established goals. Starting in
2009, the required UDS performance measures were included in all grantee plans, along
with other goals specific to individual grantees.


During the period of our review, HRSA—in addition to conducting grant reviews—also
conducted onsite performance reviews of health center grantees at least once during the
grantees’ 3–5 year project period. 25, 26 During these performance reviews, HRSA examined
grantees’ progress on their performance measures including the number of patients served,
financial stability measures, and the selected clinical measure. 27 The review team and the
grantee discussed, in particular, external and internal factors that influenced the grantee’s
performance on clinical and other performance measures. HRSA and the grantee also
discussed options for improvement. 28 The Performance Review Protocol, used during
onsite visits, included suggested questions concerning grantees’ quality
assurance/improvement plans, but it did not specify how or whether review teams were to
collect or review information about these plans. 29 HRSA stopped conducting performance
reviews after November 2009. After that time, onsite HRSA reviews primarily assessed
grantees’ ability to comply with health center program requirements, among other issues. 30
According to HRSA staff, site visits also are used to review clinical and financial issues
raised during quarterly calls between health center grantees and HRSA project officers.

METHODOLOGY

Sample Selection
Health Center Selection. Using HRSA data, we selected a stratified random sample of
150 health center grantees that (1) were funded in 2005, (2) were still operating in 2006,
and (3) had received a performance review between 2004 and 2006. 31, 32 One stratum

25
   HRSA, Performance Review Protocol, revised December 2004. This document is no longer available
online.
26
   The Performance Review Protocol did not establish required timeframes for reviews.
27
   HRSA, Performance Review Protocol, revised December 2004.
28
   Ibid.
29
   Ibid.
30
   Requirements established pursuant to 42 CFR §§ 51c.303 and 56.303. Other issues are pursuant to
42 CFR §§ 51c.305 and 56.305.
31
   HRSA reported 1,002 health center grantees in 2006. 2006 National Aggregate UDS Data: Table 2.
Accessed at http://bphc.hrsa.gov/uds/2006data/national/nationaltable2.htm on December 7, 2010.


OEI-09-06-00420         Quality Assurance and Care Provided at Health Centers
Page 7 – Mary K. Wakefield, Ph.D., R.N


consisted of the population of the 75 largest health centers, based on number of patients; we
included all of the 75 largest health centers in our sample. The other stratum consisted of
the remaining population of 315 health centers, from which we randomly selected 75 health
centers. 33 After excluding three of the sampled health center grantees because of ongoing
Office of Inspector General (OIG) investigations, we sent letters and information requests
to the remaining 147 health center grantees.


Patient Selection. We requested information about patient encounters from the
147 sampled health center grantees to help us select a sample of patients for medical
review. We sent letters to each of the sampled health center grantees to request that they
provide information about patient encounters in 2006 and 2007. The letters requested that
the health center grantees provide the name, identification number, and date of birth for all
patients with at least one encounter, at any of their health center sites, in the last 6 months
of 2007. 34 For each of these patients, we also requested the number of encounters at the
health center in 2006 and, separately, in 2007. We received patient lists from 142 of the
health center grantees. We used this information to select a sample of patients who had at
least two patient encounters between January 1, 2006, and December 31, 2007, including at
least one encounter in the last 6 months of 2007. From the patient lists of the 142 health
centers, we selected a sample of 490 patients. We collected medical records for the
sampled patients in September 2008, so services provided through that time could have
been included in our medical review.


Medical Review of Health Center Records
We worked with a medical review contractor that contracted with three physicians and three
dentists, all with current and/or prior health center experience, to review the status of
primary health services among patients in four categories. Using available information
about patients’ health status and medical history, they determined whether each patient




32
   Approximately 41 percent of health centers operating in 2006 met these criteria.
33
   The number of patients was based on 2005 UDS data.
34
   When requesting information about patients from health center grantees, we instructed them to use the
definition of patient encounters included the 2007 Uniform Data System Reporting Manual. HRSA’s 2007
UDS Reporting Instructions for Section 330 Grantees defines encounters as “face-to-face contacts between
a patient and a provider who exercises independent professional judgment in the provision of services to
the patient. To be included as an encounter, services rendered must be documented in the patient’s record.”
Encounters do not include large-scale efforts such as group immunizations, screening programs, or
communitywide programs such as health fairs. Furthermore, the provision of laboratory tests, x-rays,
immunizations, tuberculosis tests, and prescription refills are not counted as encounters if not accompanied
by an additional service.


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 8 – Mary K. Wakefield, Ph.D., R.N


received necessary services. 35 We developed a medical review instrument, 36 using
feedback from the medical reviewers, to assess:
•    preventive health exams 37 (e.g., hearing 38 and vision exams, weight and blood pressure
     checks, and cholesterol screenings),
•    vaccinations (e.g., polio; influenza; pneumococcal; measles, mumps, rubella; varicella
     (chicken pox); and diphtheria, tetanus, pertussis),
•    referrals for specialized treatment (e.g., allergy, behavioral health, dermatology, HIV
     testing and/or treatment, health education, nephrology, nutritionist services,
     ophthalmology/optometry, and orthopedics), and
•    dental services (e.g., dental exams, cleanings, fillings, and x-rays).


Medical reviewers made overall assessments based on both the number and potential
consequence of individual exams or services within each type of service they determined to
be adequate. For example, a medical reviewer could have determined that omission of
vision and blood pressure exams reflected inadequate overall preventive health services for
a patient with diabetes, but not for a patient without diabetes. Reviewers generally
determined that services were inadequate if, based on their judgment:
•     services needed by the patient were not offered,
•     services needed by the patient were not provided in a timely manner, or
•     unnecessary services were provided to the patient.

Analysis. We conducted all analyses separately for patients in different age groups. For
vaccinations, we conducted separate analyses for each of the following age groups: patients

35
   In some cases, preventive health guidelines recommend against certain patients receiving specific
services, such as a vaccination, given their health status or medical history. In these cases, medical
reviewers would have determined that the status of this service was appropriate.
36
   We developed the medical review instrument based on preventive health guidelines issued by
organizations such as the U.S. Preventive Services Task Force, the American Academy of Pediatrics, and
the American Diabetes Association, among other national and professional associations.
37
   The term “preventive health exams” is not listed as a required primary health service pursuant to
42 U.S.C. 254b(b)(1)(A)(i)(I) and 42 CFR § 51c.102(h), or as a supplemental health service pursuant to
42 CFR § 51c.102(j). We use this term broadly to encompass a variety of preventive health services,
including screenings, examinations, and laboratory tests.
38
   Some of the health services assessed by our medical reviewers, such as hearing exams for adult patients,
are not explicitly listed as required primary health services pursuant to 42 U.S.C. 254b(b)(1)(A)(i)(I) and
42 CFR § 51c.102(h) or supplemental health services pursuant to 42 CFR § 51c.102(j). However, we
included these services in our review because they have been recommended in guidance issued by national
and/or professional health care associations for the general population and/or for individuals in certain age
groups or with particular health conditions.


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 9 – Mary K. Wakefield, Ph.D., R.N


aged 0–18, 19–49, and 50 and older. 39 For each of the other service types, we conducted
separate analyses for pediatric patients (0–18) and adult patients (19 and older). The results
of the medical review are projected to a subset of all health center patients. 40 Appendix C
lists the confidence intervals for all medical review statistics presented in this report.


Limitations
Assessments of health center services in this report are based on the professional judgment
of medical reviewers. By their nature, medical reviews involve some subjectivity.
Differences in training and certification could result in differences in judgment. We
conducted two pretests and made modifications to the review instrument to better
standardize the medical review process.


Generally, the medical review results are based on documentation of services received or
needed during encounters at health centers. In some cases, health center patients may have
received services from other health providers. Unless documented in health center records,
this information was not available to medical reviewers, and, therefore, not incorporated
into medical reviewers’ assessments of patients’ receipt of services.


See Appendix D for a detailed discussion of the methdology.

This inspection was conducted in accordance with the Quality Standards for Inspections
approved by the Council of the Inspectors General on Integrity and Efficiency.




39
   The Centers for Disease Control and Prevention (CDC) issues separate Recommended Immunization
Schedules for patients aged 0–6, 7–18, 19–49, 50–64, and 65 and up. We combined all pediatric patients
into a single group and patients aged 50 and older into a single group for analysis because of the relatively
small number of such patients in our sample.
40
   The results are projected to patients with at least two patient encounters between January 1, 2006, and
December 31, 2007 (including at least one in the last 6 months of 2007), at health centers that (1) were
funded in 2005, (2) still operating in 2006, and (3) had received a performance review between 2004 and
2006.


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 10 – Mary K. Wakefield, Ph.D., R.N


RESULTS

Almost All Health Centers Reported Maintaining Required Quality Assurance
Programs
Almost all health center grantees reported that they maintain written quality assurance
programs. Only 2 percent of grantees indicated that they did not maintain a written
quality assurance program. 41 Of the 141 grantees that completed surveys, 134 provided
some documentation of their quality assurance program. Most of these grantees
maintained a written quality assurance plan created to describe the grantees’ quality
assurance activities. Others did not maintain a separate quality assurance plan, but
instead outlined their quality assurance activities in other health center guidance, such as
policy and procedures manuals, clinical guidance, quality review protocols, and risk
management guides.

Ninety-Seven Percent of Grantees Reported Conducting Required Periodic Assessments as
Part of Their Quality Assurance Program. Most health center grantees reported that they
conduct periodic assessments of health center services as part of their quality assurance
program. Among the health center grantees that indicated they have a written quality
assurance program, 97 percent indicated that they have conducted a periodic assessment
(hereafter assessment) of the services provided by their health centers. 42

The majority of health center grantees indicated that they conduct assessments at least once
a year. Among the health center grantees that reported conducting assessments, 46 percent
indicated that they conduct assessments once a year and 9 percent indicated that they
conduct assessments every 6 months. Other grantees noted that they conduct assessments
monthly or quarterly, whereas some noted that they continuously assess the services
provided to patients. Some health center grantees reported conducting multiple assessments
staggered throughout the year, with reviews of different types of services or patients
assigned to specific months.




41
   One health center responded that it did not maintain a written quality assurance program, whereas a
second health center grantee indicated that although it did not maintain a written quality assurance
program, it tracked some clinical data and participated in a HRSA disease collaborative. The information
provided by the latter grantee did not appear to indicate that the grantee maintained an organized quality
assurance program. We asked health center grantees to send documentation of their quality assurance
programs with their completed surveys.
42
   If a health center grantee indicated that it did not maintain a written quality assurance program, the
grantee was not required to respond to the rest of the questions on the survey, including those involving
periodic assessments.


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 11 – Mary K. Wakefield, Ph.D., R.N


Most health center grantees indicated that they reviewed patient medical records as a part of
their assessments. Among the health center grantees that reported conducting assessments,
91 percent indicated that they review patient medical records. Among grantees that
reported reviewing medical records as part of their assessments:
•    82 percent select records randomly,
•    47 percent select records from certain types of patients (e.g., pediatric patients),
•    30 percent review records from all health center patients, and
•    22 percent review records of certain provider types (e.g., all dentists, providers being
     credentialed). 43


Among health center grantees that conducted assessments, most reported assessing
medical records and documentation (83 percent) and quality of care (82 percent), with
fewer assessing patient outcomes (61 percent), service trends (57 percent), and the
medical necessity of services (35 percent).

Most Quality Assurance Programs Addressed the Primary Health Services Provided by
Health Center Grantees. Quality assurance programs addressed primary health services
through the implementation of clinical protocols and the measurement of patient
outcomes. For example, most health center grantees reported that their quality assurance
programs specifically addressed clinical protocols for diabetes screening 44 and/or care
(89 percent) and immunizations (87 percent). Grantees also reported addressing patient
outcomes in their quality assurance programs, including outcomes related to diabetes
screening and/or care (92 percent) and immunizations (81 percent). Table 1 highlights
the clinical protocols and patient outcomes often included in health center grantees’
quality assurance programs.




43
   These percentages do not sum to 100 percent because some health center grantees reported multiple
assessments for which they used different methods for selected patient records.
44
   Although diabetes screening is not explicitly included as a required primary health service pursuant to
42 U.S.C. 254b(b)(1)(A)(i)(I), health centers may have developed protocols for this and other services
based on guidance issued by professional and/or national health care associations.



OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
  Page 12 – Mary K. Wakefield, Ph.D., R.N


Table 1: Selected Clinical Protocols and Patient Outcomes Addressed in
Health Center Grantees’ Quality Assurance Programs
                                                                            Percentage of Health
                                                                                Center Grantees
  Element Type                                                  Element
                                                                                That Addressed
                                                                                        Element

                                                 Diabetes screening/care                 88.7%

                                                          Immunizations                  86.9%

                                             Hypertension screening/care                 81.4%

                                               Cervical cancer screening                 80.3%

                                                 Breast cancer screening                 79.4%
  Clinical Protocols
                                                 Colon cancer screening                  79.4%

                                              Cholesterol screening/care                 77.2%

                                                           Pediatric care                76.8%

                                                             Dental care                 69.0%

                                                           Prenatal care                 63.9%

                                                 Diabetes screening/care                  91.9%

                                                          Immunizations                  81.4%

                                             Hypertension screening/care                 72.8%
  Patient Outcomes
                                               Cervical cancer screening                 68.4%

                                                 Breast cancer screening                 66.4%

                                              Cholesterol screening/care                 66.4%

Source: OIG analysis of survey data, 2011.




  Most quality assurance programs also addressed patients’ access to the primary health
  services provided by health centers. Approximately 86 percent of grantees reported
  addressing the availability of clinical staff. Similarly, 85 percent of grantees reported that
  their quality assurance program specifically addressed the convenience of health center
  hours, and approximately 81 percent of health center grantees reported addressing wait
  times for scheduled appointments. Most grantees also addressed the availability of
  translation services (82 percent) and the affordability of care (77 percent).




  OEI-09-06-00420                 Quality Assurance and Care Provided at Health Centers
Page 13– Mary K. Wakefield, Ph.D., R.N


Most grantees also addressed the adequacy of training and review of clinical staff in their
quality assurance programs. For example, 86 percent addressed continuing education for
medical staff, 86 percent addressed the verification of credentials for health center staff
providers, and 85 percent addressed staff education on health center policies.

Although Most Health Centers Reported Addressing Medical Records As Part of
Their Quality Assurance Programs, Medical Reviewers Were Not Able To
Determine the Adequacy of At Least One Type of Service For 45 Percent of Patients
Because of Insufficient Documentation
Most grantees addressed medical records and documentation as a part of their quality
assurance plans. Overall, approximately 89 percent of grantees with quality assurance
programs reported that they addressed the accuracy and completeness of patient medical
records in their quality assurance programs. Among all health center grantees that
conducted assessments as part of their quality assurance programs, 83 percent reported that
they assessed health center documentation and medical records.

Although most health centers addressed medical records in their quality assurance
programs, records for approximately 45 percent of health center patients contained
insufficient documentation for reviewers to assess at least one type of service included in
our review. 45 For each type of service, reviewers either assessed the adequacy of services
or indicated that they could not do so, primarily because of insufficient documentation on
the services received by patients or patients’ health status. As illustrated in Table 2,
vaccinations often lacked sufficient documentation for reviewers to determine the
adequacy of services. 46 Approximately 44 percent of health center patients’ records
lacked sufficient documentation for reviewers to determine the overall adequacy of
vaccinations. Although documentation of vaccinations was sufficient for most pediatric
patients, it was frequently missing for adults.




45
   Among the 134 grantees that provided documentation of their quality assurance programs, 95 provided a
document that was dated from 2007 or earlier, whereas 24 provided a document dated from 2008. The
documentation provided by the remaining grantees was undated or contained multiple dates. As a result,
the documentation available in some patients’ medical records could have predated specific documentation-
related guidance included in the quality assurance programs that we reviewed.
46
   If reviewers lacked sufficient information, they did not make determinations about the adequacy of care.


OEI-09-06-00420          Quality Assurance and Care Provided at Health Centers
Page 14 – Mary K. Wakefield, Ph.D., R.N


Table 2: Availability of Documentation in Patients’ Records
                                                                                    Percentage of Patients
                                                                                          With Insufficient
                         Type of Service                            Patient Age
                                                                                       Documentation for
                                                                                          Type of Service

Preventive health exams                                      All patients (n=399)                    5.3%

                                                             All patients (n=405)                   44.0%

                                                                   0–18 (n=125)                     17.3%
Vaccinations
                                                                 19–49 (n=163)                      62.5%

                                                         50 and older (n=117)                       46.6%

Referrals for specialized treatment                          All patients (n=407)                    2.5%
Dental services                                      All dental patients (n=91)                    19.0%*
Source: OIG analysis of medical review data, 2011.
* Among patients who received at least one dental service.




Primary Health Services, Generally, Were Appropriate For Most Health Center
Patients
Medical reviewers assessed four types of primary health services among health center
patients: preventive health exams, vaccinations, referrals for specialized treatment, and
dental services. Health center requirements specify broad categories of primary health
services that health centers must provide to patients. However, the requirements do not
establish specific standards for these services, nor do they list each individual service that
might be needed by patients. Therefore, we relied on the professional judgment of
medical reviewers to assess each type of service. For each type of service, medical
reviewers first assessed individual exams and services, such as vision exams, polio
vaccinations, referrals for allergy treatment, and dental fillings. 47, 48 After assessing the



47
   When assessing each of the individual preventive health exams, vaccinations, referrals, and dental
services on the medical review instrument, reviewers determined whether care was “appropriate,”
“inappropriate” or, because of the patients’ age or gender, “not applicable.” Inappropriate services were
those that, in reviewers’ judgment, were inadequate based on the patients’ history and health status.
Reviewers also indicated whether they could not determine the adequacy of individual services, generally
because documentation in the patients’ record was incomplete. If reviewers lacked sufficient information,
they did not make determinations about the adequacy of care.
48
   Some of the health services assessed by our medical reviewers are not explicitly listed as required
primary health services pursuant to 42 U.S.C. 254b(b)(1)(A)(i)(I) and 42 CFR § 51c.102(h) or
supplemental health services pursuant to 42 CFR § 51c.102(j). However, we included these services in our
review because they have been recommended in guidance issued by national and/or professional health
care associations for the general population or for individuals in certain age groups or with particular health
conditions.


OEI-09-06-00420                 Quality Assurance and Care Provided at Health Centers
Page 15 – Mary K. Wakefield, Ph.D., R.N


individual exams and services, reviewers made an overall assessment of the adequacy of
each type of service. Reviewers determined whether services overall in each area were
adequate or inadequate, or indicated that they could not determine the adequacy of
services. Reviewers’ determination that services were adequate did not necessarily
indicate that the health center provided these services to the patient, but rather reviewers’
judgment that, based on available documentation, the patient had, at the time of the
review, received care that was consistent with established guidelines and did not fail to
receive a necessary service. Table 3 summarizes medical reviewers’ overall
determinations of the adequacy of the four types of primary health services received by
health center patients.

     Table 3: Overall Medical Reviewer Determinations of Four Service
     Types
                                           Percentage Determined    Percentage Determined
       Service Type
                                                       Adequate                Inadequate

      Preventive health exams                               68.4%                  26.4%

       Vaccinations                                         36.8%                  19.2%

       Referrals                                            86.1%                  11.4%

       Dental services                                      74.2%                   6.8%
     Source: OIG analysis of medical record review, 2011.



If reviewers determined that either overall or individual services were inadequate, they
indicated why. In most but not all such cases, medical reviewers indicated that patients
did not receive necessary services. For a small number of cases, medical reviewers
determined that services were inadequate because necessary services were not received in
a timely manner or because patients received medically unnecessary services. The
estimates presented in this finding represent the percentage of patients (among all patients
whose records were reviewed) that, according to medical reviewers, did not receive
necessary services.


Medical Reviewers Determined That Approximately 25 Percent of Health Center Patients
Did Not Receive Necessary Preventive Health Exams. Medical reviewers determined that
overall preventive health services were inadequate for approximately one in four patients
because patients did not receive needed preventive health exams. 49, 50 Specifically, in the
professional judgment of medical reviewers, approximately 29 percent of adult patients and


49
   These cases represent most, but not all, of the preventive services that reviewers determined to be
inadequate.
50
   Based on the documentation included in their records.


OEI-09-06-00420                   Quality Assurance and Care Provided at Health Centers
Page 16 – Mary K. Wakefield, Ph.D., R.N


17 percent of pediatric patients did not receive necessary preventive health exams. Table 4
shows some of the individual preventive health exams not received by health center
patients. 51 In particular, reviewers reported that approximately 21 percent of adults did not
receive necessary colon cancer screening exams. Similarly, approximately 20 percent of
adults did not receive necessary cholesterol screening exams. Among pediatric patients,
approximately 16 percent did not receive necessary hearing exams and 15 percent did not
receive necessary developmental screenings.


     Table 4: Medical Reviewer Assessments of Necessary Preventive Health
     Exams Not Received
                                                                          Percentage That Did Not
       Preventive Health Exam                       Patient Age Group
                                                                        Receive Necessary Exams
      Colon screening (i.e., fecal
      occult blood, sigmoidoscopy, or                           Adult                     21.3%
      colonoscopy)

      Cholesterol screening                                     Adult                     20.3%

       Blood sugar level screening                              Adult                       9.6%

       Vision                                                   Adult                       7.5%

       Hearing                                              Pediatric                     15.6%

       Developmental screening                              Pediatric                     14.7%

       Blood pressure                                       Pediatric                     10.7%

       Vision                                               Pediatric                     11.5%
     Source: OIG analysis of medical record review, 2011.




Approximately 17 Percent of Patients Did Not Receive Necessary CDC-Recommended
Vaccinations. Medical reviewers reported that vaccinations were inadequate for
approximately 17 percent of patients because they did not receive necessary vaccinations.
Overall, vaccinations for approximately 24 percent of patients aged 50 and older, 17 percent
of patients aged 19–49, and 10 percent of patients aged 0–18 were inadequate because the
patients did not receive necessary vaccinations. Table 5 displays some of the individual
vaccinations missing for patients in the different age groups. 52




51
   Reviewers assessed the adequacy of 13 individual preventive health exams. The individual exams
assessed for adult and pediatric patients varied slightly.
52
   Reviewers assessed the appropriateness of 12 individual vaccinations included on CDC’s recommended
schedules. The individual vaccinations assessed varied slightly for patients of different ages.


OEI-09-06-00420                   Quality Assurance and Care Provided at Health Centers
Page 17 – Mary K. Wakefield, Ph.D., R.N


       Table 5: Medical Reviewer Assessments of Necessary Vaccinations Not
       Received
                                                              Percentage That Did Not Receive
       Vaccination                              Patient Age
                                                                      Necessary Vaccinations
       Influenza 53                            50 and older                           25.0%

       Pneumococcal                            50 and older                           19.1%

       Diphtheria, tetanus, pertussis          50 and older                           16.1%

       Influenza                                      19–49                           14.9%

       Diphtheria, tetanus, pertussis                 19–49                           14.0%

       Hepatitis B                                    19–49                             4.4%

       Influenza                                       0–18                           30.2%

       Varicella (chicken pox)                         0–18                           12.0%

       Hepatitis A                                     0–18                             8.1%
     Source: OIG analysis of medical record review, 2011.



Approximately 10 percent of health center patients did not receive necessary referrals.
Medical reviewers determined that referrals for specialized treatment were inadequate for
approximately 10 percent of patients because they did not receive needed referrals.
Medical reviewers did not assess whether patients actually received services from the
appropriate specialists, but rather whether a necessary referral to the appropriate specialist
was documented in patients’ records. Approximately 11 percent of adult patients and
8 percent of pediatric patients did not receive needed referrals. 54 Table 6 displays some of
the referrals that were not provided to adult health center patients. For example, almost
8 percent of adult patients did not receive needed referrals for HIV/AIDS testing and/or
treatment. Among pediatric patients, referrals for necessary laboratory tests (3 percent) and
hearing services (2 percent) were not received for a relatively small percentage of patients.


53
   It is important to note that vaccination rates in the general population are not always consistent with the
CDC-recommended schedule. For example, although we cannot make a direct comparison because our
review assessed the adequacy of vaccinations (as opposed to actual vaccination rates), in 2007, only
36 percent of adults aged 50–64 and 66 percent of adults aged 65 and older reported receiving an influenza
vaccination. Self-reported influenza vaccination coverage trends 1989–2007, National Health Interview
Survey. Accessed online at
http://www.cdc.gov/flu/professionals/vaccination/pdf/NHIS89_07fluvaxtrendtab.pdf on September 8, 2010.
Similarly, approximately 17 percent of adults aged 50–64 and 58 percent of adults aged 65 and older
reported receiving a pneumococcal vaccination in 2007. Self-reported pneumococcal vaccination coverage
trends 1989–2007, National Health Interview Survey. Accessed online at
http://www.cdc.gov/flu/professionals/vaccination/pdf/NHIS89_07ppvvaxtrendtab.pdf on September 8,
2010.
54
   Reviewers assessed the appropriateness of referrals for 29 types of specialized care.


OEI-09-06-00420                   Quality Assurance and Care Provided at Health Centers
Page 18 – Mary K. Wakefield, Ph.D., R.N


   Table 6: Medical Reviewer Assessments of Necessary Referrals Not
   Received by Adult Patients
                                                         Percentage That Did Not Receive
    Referral
                                                                     Necessary Referrals

    HIV/AIDS testing and/or treatment                                              8.0%

    Laboratory tests                                                               5.1%

    Ophthalmology/optometry services                                               4.9%

    Nutritionist services                                                          4.6%

    Health education                                                               4.4%
  Source: OIG analysis of medical record review, 2011.




Approximately 2 Percent of Dental Patients Did Not Receive Necessary Dental Services.
According to medical reviewers’ assessments, only 2 percent of dental patients received
inadequate overall dental care because they did not receive necessary services. In our
sample of 32 pediatric patients with health center dental records, medical reviewers
determined that only one patient (3 percent) did not receive necessary dental services.
Similarly, only one adult patient in our sample of 59 adult dental patients (2 percent) did not
receive necessary dental services.


HRSA Review Activities Provided Limited Information About the Extent to Which
Individual Health Center Patients Received Required Primary Health Services
HRSA oversight in 2007, the period covered by our review, was intended to collect core
clinical data, ensure grantee compliance with program requirements, and support grantee
efforts to improve their programs; it was not intended to determine the extent to which
health center patients received primary health services.


HRSA Reviews Did Not Assess the Required Primary Health Services Received by Health
Center Patients. According to HRSA staff, the agency did not independently collect and/or
review patient medical records or other health information to assess and/or verify the
services received by individual health center patients. HRSA onsite reviews assessed
grantees’ success at achieving their clinical and management goals, and determined whether
technical assistance was necessary. Through its UDS, HRSA received clinical information
about a subset of health center services and/or patients, but this information did not




OEI-09-06-00420               Quality Assurance and Care Provided at Health Centers
Page 19 – Mary K. Wakefield, Ph.D., R.N


necessarily reflect the range of care received by most health center patients. Even with
the most recent update to UDS reporting, performance measures might not provide
HRSA with comprehensive information about individual health center patients’ care.

The Lack of Detailed Requirements for Quality Assurance Programs May Have Limited
Their Usefulness in Ensuring That Patients Receive Necessary Primary Health Services.
Requirements and reviews for quality assurance programs were broad and did not always
ensure that patients receive necessary services. Approximately 94 percent of grantees 55
reported that HRSA staff reviewed their overall quality assurance program, and
86 percent 56 reported that HRSA staff reviewed their assessments. However, beyond the
requirement that grantees must develop and maintain quality assurance programs that
provide for assessments of services, the requirements provided few specifics about the
issues to be addressed in quality assurance programs. We collected quality assurance
plans that ranged from four to several hundred pages. In addition, requirements specified
that grantees must conduct assessments of services, but did not specify the frequency of
these assessments, the services to be included, or the review methods to be used. Most
grantees reported that they assessed medical record documentation and health services as
a part of their quality assurance programs and internal assessments. However, medical
reviewers often could not determine the adequacy of services because of insufficient
documentation and, in other cases, judged that patients did not receive necessary services.

RECOMMENDATIONS

Health centers provide a range of health services to medically underserved communities.
Ninety-seven percent of health center grantees maintained required quality assurance
programs and conducted internal assessments of their services. Although 89 percent of
grantees indicated that their quality assurance programs addressed the accuracy and
completeness of medical records, medical reviewers determined that 45 percent of patient
records did not contain sufficient information for them to assess at least one type of service.
Primary health services, generally, were appropriate for most health center patients. During
the period of our review, HRSA’s oversight was intended to collect core clinical data,
ensure grantee compliance with program requirements, and support grantee efforts to
improve their programs; it was not intended to directly assess the receipt of required
primary health services by health center patients, and provided limited information about




55
     Among grantees that reported maintaining a quality assurance program.
56
     Among grantees that reported conducting assessments.


OEI-09-06-00420            Quality Assurance and Care Provided at Health Centers
Page 20 – Mary K. Wakefield, Ph.D., R.N


the services actually received by health center patients. Therefore, we recommend that
HRSA:

Provide More Specific Guidance About What Grantees Should Address in
Their Quality Assurance Programs and How They Should Conduct Their
Periodic Assessments
Health center grantees must maintain required quality assurance programs and, through
these quality assurance programs, periodically assess their services. However,
requirements provide little detail about what quality assurance programs and assessments
must address. HRSA should specify what elements should be included in quality
assurance programs and, in particular, provide more guidance about how grantees
conduct their periodic assessments of services. For example, HRSA could require all
grantees to review records for a random sample of patients to assess the extent to which
patients received required primary services as a part of their assessments. In addition,
HRSA could require health centers to assess the adequacy of medical records.

Provide More Specific Guidance Concerning What Information is Required
in Patient Records at Health Centers
Incomplete medical records limit health providers’ ability to determine what health services
their patients need or receive. HRSA should provide explicit guidance concerning the
documentation that must be maintained in all health center records. HRSA could develop
guidance based on standards issued by national or professional associations or require
health center grantees to follow established standards and offer technical assistance, as
appropriate.


HRSA also should continue to support health center grantees’ efforts to implement
electronic record systems. Medical reviewers noted that electronic health records were
more organized and legible than handwritten paper records. HRSA’s support of health
center grantees’ transition to electronic health records, through the American Recovery and
Reinvestment Act and other agency funding, may improve health centers’ ability to
maintain complete medical record documentation.


Provide More Specificity About the Required Primary Health Services
Although health center requirements indicate the broad primary health services that
grantees must provide, they do not include specific quality standards for these services.
HRSA should provide more guidance about the services that should be received by health
center patients. To ensure that patients receive necessary services, HRSA could require
explicitly that health center grantees identify specific preventive health guidance or



OEI-09-06-00420      Quality Assurance and Care Provided at Health Centers
Page 21 – Mary K. Wakefield, Ph.D., R.N


recommendations that their health care practitioners will follow. HRSA could recommend
to grantees specific guidance issued by organizations and agencies such as the U.S.
Preventive Services Task Force, CDC, or other national and/or professional health
associations.


Establish Procedures To Independently Assess Patients’ Receipt of Primary
Health Services and the Adequacy of Patients’ Records
Although health center grantees maintain the primary responsibility for the care received by
their patients, HRSA oversight should provide the agency with more information about the
extent to which health center patients receive required primary health services. UDS
reporting does not provide information about the services received by most health center
patients. HRSA should develop a review process that would allow it to assess the primary
health services received by a cross-section of health center patients. This process also
should assess the adequacy of medical record documentation. For example, HRSA could
collect and review a representative sample of patient records to determine the extent to
which patients received adequate care. In addition, HRSA could examine the extent to
which expected documentation, such as vaccination records and patient medical histories, is
maintained in a sample of patient records. During reviews, HRSA also could determine the
extent to which grantees implemented elements in their quality assurance programs, in
particular those related to patients’ receipt of primary health services and the adequacy of
medical record documentation.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft, HRSA highlighted the achievements of health centers
in providing quality primary health care to underserved communities and its own increasing
focus on quality improvement. Although our review included health records and services
through 2007, HRSA cited key initiatives and activities implemented since that time,
including emphasizing evidence-based quality improvement practices and evaluating the
quality and impact of health care services. HRSA also cited recent research highlights
showing favorable statistics for health center patients in comparison to other populations.

In response to our first recommendation—to provide more specific guidance about what
grantees should address in their quality assurance programs—HRSA stated that it is in the
process of developing specific policy guidance on quality improvement and quality
assurance plans including periodic assessments, in accordance with the statutory
requirements.




OEI-09-06-00420      Quality Assurance and Care Provided at Health Centers
Page 22 – Mary K. Wakefield, Ph.D., R.N


In response to our second recommendation—to provide more specific guidance about what
information is required in patient records at health centers—HRSA stated that it fully
supports the adoption of electronic health records that meet the “Meaningful Use” criteria
established by HHS’s Office of the National Coordinator for Health Information
Technology and the Centers for Medicare & Medicaid Services. OIG supports HRSA’s
efforts to expand the adoption of electronic health records in health centers; these efforts
will help to establish clear expectations for what information should be documented in
patient records. We anticipate receiving documentation from HRSA regarding its 2010
modification to the UDS to require all health centers to report their specific electronic
health record activities.

In response to our third recommendation—to provide more specificity about the required
primary health services—HRSA said that national variation in health centers’ scope of
practice and the needs of the target populations limit its ability to specify and/or require
certain procedures or more detailed aspects of core primary and preventive health services.
HRSA stated that it will continue to endorse the most current nationally recognized,
evidence-based clinical practice guidelines and protocols, such as those set forth by the U.S.
Preventive Services Task Force, to offer as a guide to providers for delivering primary
health services. OIG supports HRSA’s endorsement of evidence-based practice guidelines
and encourages the agency to require health centers to include a reference to nationally
recognized clinical practice protocols in the centers’ primary health services policies for
providers.

Finally, in response to our fourth recommendation—to establish procedures to
independently assess patients’ receipt of primary health services and the adequacy of patient
records—HRSA stated that it is in the process of updating its site-visit protocol to add a
focus on such reviews. In particular, future site visits will involve reviews/audits of a
sample of patient records.

For the full text of HRSA’s comments, see Appendix E.




OEI-09-06-00420       Quality Assurance and Care Provided at Health Centers
Page 23 – Mary K. Wakefield, Ph.D., R.N


APPENDIX A
Clinical Measures for 2007 Health Center Grantee Performance Reviews 57


1. Perinatal (Effort): Percentage of pregnant women beginning prenatal care by end of
   first trimester.
2. Perinatal (Effort): Percentage of women who had a postpartum visit within 42 days
   after delivery.
3. Perinatal (Effort): Percentage of newborns who had a followup visit within 14 days
   of birth.
4. Child (Effort): Percentage of children 5 through 18 years of age diagnosed with
   “persistent” asthma who were prescribed appropriate medications.
5. Adolescent (Effort): Percentage of adolescents who had both a documented
   Behavioral Risk Assessment and a related counseling visit.
6. Adult (Outcome): Percentage of adults diagnosed with an abnormal lipid profile
   whose levels are under control.
7. Adult (Effort): Percentage of adults with abnormal breast, cervical, or colon cancer
   screening results for which referral and/or treatment has been initiated within 30 days
   of test completion.
8. Adult (Outcome): Percentage of adults diagnosed with hypertension whose blood
   pressure is under control.
9. Adult (Effort): Percentage of adults who are tobacco users who have received
   counseling and/or a treatment plan to quit.
10. Adult (Outcome): Percentage of adults with type 1 or type 2 diabetes whose last
    glycated hemoglobin (HbA1c) level was less than 7 percent.
11. Oral (Outcome): Percentage of dental patients with a comprehensive oral exam and
    a treatment plan completed within a 12-month period.
12. Mental (Effort & Outcome): a. Percentage of all adult patients with screening for
    depression (Effort) or b. Percentage of patients with major depression who have a
    50-percent decrease in depression severity score (Outcome).
 13. All Life Cycles (Outcome): Percentage of child, adolescent, adult, geriatric, or
     HIV/AIDS patients with appropriate immunizations.


57
     Health Resources and Services Administration guidance. This information is no longer available online.


OEI-09-06-00420             Quality Assurance and Care Provided at Health Centers
Page 24 – Mary K. Wakefield, Ph.D., R.N


14. All Life Cycles (Effort): Percentage of child/adolescent patients or adult patients
    with a Body Mass Index indicating overweight or obesity who have received healthy
    weight counseling and/or other related interventions or treatment.




OEI-09-06-00420      Quality Assurance and Care Provided at Health Centers
Page 25 – Mary K. Wakefield, Ph.D., R.N

APPENDIX B
2011 Clinical and Financial Performance Measures 58



Outreach/Quality of Care

1. Percentage of pregnant women beginning prenatal care in the first trimester
2. Percentage of children with 2nd birthday during the measurement year with
   appropriate immunizations
3. Percentage of women 21–64 years of age who received one or more tests to screen for
   cervical cancer
4. Percentage of patients age 2 to 17 years who had a visit during the current year and
   who had Body Mass Index (BMI) Percentile documentation, counseling for nutrition,
   and counseling for physical activity during the measurement year
5. Percentage of patients age 18 years or older who had their BMI calculated at the last
   visit or within the last 6 months and, if they were overweight or underweight, had a
   followup plan documented
6. Percentage of patients age 18 years and older who were queried about tobacco use
   one or more times within 24 months
7. Percentage of patients age 18 years and older who are users of tobacco and who
   received (charted) advice to quit smoking or tobacco use
8. Percentage of patients age 5 to 40 years with a diagnosis of persistent asthma
   (mild, moderate, or severe) who were prescribed either the preferred long-term
   control medication or an acceptable alternative pharmacological therapy during the
   current year


Health Outcomes/Disparities

1. Percentage of diabetic patients whose HbA1c levels are less than 7 percent, less than
   8 percent, less than or equal to 9 percent, or greater than 9 percent
2. Percentage of adult patients with diagnosed hypertension whose most recent blood
   pressure was less than 140/90
3. Percentage of births less than 2,500 grams to health center patients


58
   Clinical and financial performance measures accessed online at
http://bphc.hrsa.gov/policiesregulations/performancemeasures/index.html on February 22, 2012.


OEI-09-06-00420          Quality Assurance and Care Provided at Health Centers
Page 26 – Mary K. Wakefield, Ph.D., R.N


Additional Clinical Measures

In addition to the above Uniform Data System clinical measures, health centers must
include
1.   One Behavioral Health (e.g., Mental Health or Substance Abuse) and
2.   One Oral Health performance measure of their choice in the Health Care Plan


Financial Viability/Costs

1.   Total cost per patient
2.   Medical cost per encounter
3.   Change in net assets to expenses ratio
4.   Working capital to monthly expense ratio
5.   Long term debt to equity ratio




OEI-09-06-00420       Quality Assurance and Care Provided at Health Centers
 Page 27 – Mary K. Wakefield, Ph.D., R.N


 APPENDIX C


Table C-1: Confidence Intervals—Quality Assurance Programs and Periodic Assessments

                                                                             Sample      Point           95-Percent
 Estimate Description
                                                                               Size   Estimate   Confidence Interval

 Percentage of grantees that reported not maintaining a written quality
                                                                                141      2.3%               0.7–7.5%
 assurance program

 Percentage of grantees that reported conducting periodic assessments
                                                                                139     97.1%          92.5%–98.9%
 as part of their quality assurance program

 Of grantees that conducted assessments, percentage that conduct
                                                                                135     45.5%          37.2%–54.1%
 assessments once a year

 Of grantees that conducted assessments, percentage that conduct
                                                                                135      9.2%           5.4%–15.4%
 assessments every 6 months

 Of grantees that conducted assessments, percentage that select patient
                                                                                135     91.4%          85.7%–95.0%
 medical records as part of the assessment

 Of grantees that reviewed patient medical records, percentage that select
                                                                                121     82.1%          74.2%–88.0%
 records randomly

 Of grantees that reviewed patient medical records, percentage that select
                                                                                121     46.8%          38.1%–55.8%
 records from certain types of patients

 Of grantees that reviewed patient medical records, percentage that review
                                                                                121     30.2%          22.7%–39.0%
 records from all health center patients

 Of grantees that reviewed patient medical records, percentage that review
                                                                                121     22.1%          15.6%–30.3%
 records from certain provider types

 Of grantees that conducted assessments, percentage that assessed health
                                                                                135     82.5%          75.2%–87.9%
 center documentation/medical records

                                                                                                  continued on next page




 OEI-09-06-00420               Quality Assurance and Care Provided at Health Centers
  Page 28 – Mary K. Wakefield, Ph.D., R.N



Table C-1: Confidence Intervals—Quality Assurance Programs and Periodic Assessments
(Continued)
                                                                                                      Point           95-Percent
Estimate Description                                                                 Sample Size
                                                                                                   Estimate   Confidence Interval

  Of grantees that conducted assessments, percentage of grantees that
                                                                                            135      82.1%          74.3%–87.9%
  assessed quality of care

  Of grantees that conducted assessments, percentage of grantees that
                                                                                            135      61.2%          52.5%–69.2%
  assessed patient outcomes

  Of grantees that conducted assessments, percentage of grantees that
                                                                                            135      56.7%          48.0%–64.9%
  assessed service trends

  Of grantees that conducted assessments, percentage of grantees that
                                                                                            135      35.0%          27.5%–43.4%
  assessed the medical necessity of care


Source: Office of Inspector General (OIG) analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
 Page 29 – Mary K. Wakefield, Ph.D., R.N




Table C-2: Confidence Intervals—Of Grantees With Quality Assurance Programs, Percentage That
Addressed Each Element
                                                                     Sample       Point           95-Percent
 Estimate Description
                                                                       Size    Estimate   Confidence Interval

 Clinical protocols for diabetes screening and/or care                  139      88.7%            82.1–93.1%



 Clinical protocols for immunizations                                   139      86.9%            79.8–91.8%



 Patient outcomes related to diabetes screening/care                    139      91.9%            85.7–95.5%



 Patient outcomes related to immunizations                              139      81.4%            73.4–87.4%



 Clinical protocols for hypertension screening/care                     139      81.4%            73.7–87.3%



 Clinical protocols for cervical cancer screening                       139      80.3%            72.4–86.3%



 Clinical protocols for breast cancer screening                         139      79.4%            71.4–85.6%



 Clinical protocols for colon cancer screening                          139      79.4%            71.4–85.6%



 Clinical protocols for cholesterol screening/care                      139      77.2%            69.3–83.5%


                                                                                           continued on next page




 OEI-09-06-00420               Quality Assurance and Care Provided at Health Centers
 Page 30 – Mary K. Wakefield, Ph.D., R.N




Table C-2: Confidence Intervals—Of Grantees With Quality Assurance Programs, Percentage That
 Addressed Each Element (Continued)

                                                                        Sample       Point           95-Percent
 Estimate Description
                                                                          Size    Estimate   Confidence Interval

 Clinical protocols for pediatric care                                     139      76.8%            68.8–83.3%



 Clinical protocols for dental care                                        139      69.0%            60.5–76.3%



 Clinical protocols for prenatal care                                      139      63.9%            55.3–71.8%



 Patient outcomes related to hypertension screening/care                   139      72.8%            64.5–79.7%



 Patient outcomes related to cervical cancer screening                     139      68.4%            59.9–75.8%



 Patient outcomes related to breast cancer screening                       139      66.4%            57.9–73.9%



 Patient outcomes related to cholesterol screening/care                    139      66.4%            57.9–73.9%



 Availability of clinical staff                                            139      85.8%            78.8–90.8%



 Convenience of health center hours                                        139      84.9%            77.7–90.1%



 Wait times for scheduled appointments                                     139      80.8%            72.9–86.8%


                                                                                              continued on next page




 OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
  Page 31 – Mary K. Wakefield, Ph.D., R.N


Table C-2: Confidence Intervals—Of Grantees With Quality Assurance Programs, Percentage That
Addressed Each Element (Continued)
                                                                         Sample       Point           95-Percent
  Estimate Description
                                                                           Size    Estimate   Confidence Interval

  Availability of translation services                                      139      81.7%            74.0–87.5%



  Affordability of care                                                     139      77.2%            69.3–83.5%



  Continuing education for medical staff                                    139      86.4%            79.3–91.3%



  Verification of credentials for health center providers                   139      86.4%            79.3–91.3%



  Staff education on health center policies                                 139      84.9%            77.7–90.1%



  Patient satisfaction                                                      139      95.1%            89.3–97.8%



  Internal quality-of-care reviewers                                        139      92.4%            86.1–96.0%



  Resolution of patient complaints                                          139      92.2%            85.9–95.8%


Source: OIG analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
  Page 32 – Mary K. Wakefield, Ph.D., R.N


Table C-3: Confidence Intervals—Medical Record Documentation
                                                                                    Sample      Point           95-Percent
  Estimate Description
                                                                                      Size   Estimate   Confidence Interval

  Percentage of patient records that lacked sufficient documentation
  for reviewers to determine the overall appropriateness of at least one type of       436     44.5%            39.1–49.9%
  care

  Of grantees with quality assurance programs, percentage that addressed the
                                                                                       139     89.3%            82.6–93.6%
  accuracy and completeness of patient medical records

  Of grantees that conducted assessments, percentage that assessed health
                                                                                       135     82.5%            75.2–87.9%
  center documentation/medical records

  Percentage of patient records that lacked sufficient documentation of
                                                                                       405     44.0%            38.3–49.8%
  vaccinations

  Percentage of patient records that lacked documentation for preventive health
                                                                                       399      5.3%             2.4–11.0%
  care

  Among patients aged 0–18, percentage of records that lacked sufficient
                                                                                       125     17.3%            11.0–26.0%
  documentation of vaccinations

  Among patients aged 19–49, percentage of records that lacked sufficient
                                                                                       163     62.5%            53.1–71.0%
  documentation of vaccinations

  Among patients aged 50 and over, percentage of records that lacked sufficient
                                                                                       117     46.6%            36.1–57.4%
  documentation of vaccinations


  Percentage of patient records that lacked sufficient documentation of referrals      407      2.5%              1.2–5.3%


  Among dental patients, percentage of records that lacked sufficient
                                                                                        91     19.0%            11.1–30.5%
  documentation of dental services

Source: OIG analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
  Page 33 – Mary K. Wakefield, Ph.D., R.N


Table C-4: Confidence Intervals—Medical Reviewer Assessments of the Four Service Types
                                                                         Sample       Point           95-Percent
  Estimate Description
                                                                           Size    Estimate   Confidence Interval

  Percentage of patients with adequate preventive health exams
                                                                            399      68.4%            62.3–73.9%


  Percentage of patients with inadequate preventive health exams
                                                                            399      26.4%            21.4–32.0%


  Percentage of patients with adequate vaccinations
                                                                            405      36.8%            31.6–42.4%


  Percentage of patients with inadequate vaccinations
                                                                            405      19.2%            15.2–24.0%


  Percentage of patients with adequate referrals
                                                                            407      86.1%            81.7–89.6%


  Percentage of patients with inadequate referrals
                                                                            407      11.4%             8.1–15.7%


  Percentage of dental patients with adequate dental services
                                                                             91      74.2%            61.7–83.7%


  Percentage of dental patients with inadequate dental services
                                                                             91       6.8%             2.5–17.0%

Source: OIG analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
  Page 34 – Mary K. Wakefield, Ph.D., R.N




Table C-5: Confidence Intervals—Medical Reviewer Assessments of Preventive Health Exams
                                                                                  Sample      Point           95-Percent
  Estimate Description
                                                                                    Size   Estimate   Confidence Interval

  Percentage of patients who did not receive necessary preventive health
                                                                                     399     24.9%            20.1–30.4%
  exams

  Percentage of adult patients who did not receive necessary preventive health
                                                                                     274     28.7%            22.6–35.8%
  exams

  Percentage of pediatric patients who did not receive necessary preventive
                                                                                     125     16.7%            10.5–25.4%
  health exams

  Percentage of adult patients who did not receive necessary colon cancer
                                                                                     279     21.3%            16.6–26.9%
  screening exams

  Percentage of adult patients who did not receive necessary cholesterol
                                                                                     279     20.3%            15.4–26.4%
  screening exams

  Percentage of pediatric patients who did not receive necessary hearing
                                                                                     124     15.6%             9.9–23.7%
  exams

  Percentage of pediatric patients who did not receive necessary developmental
                                                                                     123     14.7%             8.9–23.2%
  screenings

  Percentage of adult patients who did not receive necessary blood sugar level
                                                                                     280      9.6%             6.3–14.3%
  screening


  Percentage of adult patients who did not receive necessary vision exams            281      7.5%             4.6–12.2%


  Percentage of pediatric patients who did not receive necessary blood pressure
                                                                                     126     10.7%             5.7–19.0%
  exams


  Percentage of pediatric patients who did not receive necessary vision exams        124     11.5%             6.6–19.2%


Source: OIG analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
  Page 35 – Mary K. Wakefield, Ph.D., R.N



Table C-6: Confidence Intervals—Medical Reviewer Assessments of Vaccinations
                                                                                Sample      Point           95-Percent
  Estimate Description
                                                                                  Size   Estimate   Confidence Interval


  Percentage of patients who received inadequate vaccinations                      405     16.7%            12.9–21.5%


  Percentage of patients aged 50 and older who received inadequate
                                                                                   117     23.9%            16.0–34.3%
  vaccinations

  Percentage of patients aged 19–49 who received inadequate vaccinations           163     17.1%            11.6–24.4%



  Percentage of patients aged 0–18 who received inadequate vaccinations            125     10.0%             5.3–18.1%


  Percentage of patients aged 50 and older who did not receive necessary
                                                                                   113     25.0%            17.2–34.8%
  influenza vaccinations

  Percentage of patients aged 50 and older who did not receive necessary
                                                                                   113     19.1%            12.0–29.1%
  pneumococcal vaccinations

  Percentage of patients aged 50 and older who did not receive necessary
                                                                                   115     16.1%             9.5–26.1%
  diphtheria, tetanus, pertussis vaccinations

  Percentage of patients aged 19–49 who did not receive necessary influenza
                                                                                   163     14.9%             9.8–21.9%
  vaccinations

  Percentage of patients aged 19–49 who did not receive necessary diphtheria,
                                                                                   162     14.0%             9.0–21.0%
  tetanus, pertussis vaccinations

  Percentage of patients aged 19–49 who did not receive necessary hepatitis B
                                                                                   163      4.4%             1.8–10.1%
  vaccinations

  Percentage of patients aged 0–18 who did not receive necessary influenza
                                                                                   125     30.2%            20.9–41.6%
  vaccinations

  Percentage of patients aged 0–18 who did not receive necessary varicella
                                                                                   126     12.0%             6.6–20.8%
  (chicken pox) vaccinations

  Percentage of patients aged 0–18 who did not receive necessary hepatitis A
                                                                                   126      8.1%             4.3–14.7%
  vaccinations

Source: OIG analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
  Page 35 – Mary K. Wakefield, Ph.D., R.N


Table C-7: Confidence Intervals—Medical Reviewer Assessments of Referrals
                                                                             Sample      Point           95-Percent
  Estimate Description
                                                                               Size   Estimate   Confidence Interval

  Percentage of patients who did not receive necessary referrals                407      9.7%             6.6–14.0%


  Percentage of adult patients who did not receive necessary referrals          281     10.5%             6.8–16.0%


  Percentage of pediatric patients who did not receive necessary referrals      126      7.8%             4.0–14.6%


  Percentage of adult patients who did not receive necessary referrals for
                                                                                281      8.0%             4.2–14.7%
  HIV/AIDS testing/treatment

  Percentage of adult patients who did not receive necessary referrals for
                                                                                281      5.1%              2.6–9.7%
  laboratory tests


  Percentage of adult patients who did not receive necessary referrals for
                                                                                281      4.9%              2.6–8.9%
  ophthalmology/optometry services

  Percentage of adult patients who did not receive necessary referrals for
                                                                                281      4.6%              2.4–8.6%
  nutritionist services


  Percentage of adult patients who did not receive necessary referrals for
                                                                                281      4.4%              2.4–8.1%
  health education

  Percentage of pediatric patients who did not receive necessary referrals
                                                                                126      3.3%              1.1–9.1%
  for laboratory tests

  Percentage of pediatric patients who did not receive necessary referrals
                                                                                126      2.1%              0.7–6.7%
  for hearing services

Source: OIG analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
  Page 37 – Mary K. Wakefield, Ph.D., R.N




 Table C-8: Confidence Interval—Medical Reviewer Assessment of Dental Services
                                                                                Sample      Point           95-Percent
  Estimate Description
                                                                                  Size   Estimate   Confidence Interval

  Percentage of dental patients who did not receive necessary dental services      91       2.0%              0.5–7.7%


Source: OIG analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
  Page 38 – Mary K. Wakefield, Ph.D., R.N



Table C-9: Confidence Intervals—Oversight from the Health Resources and Services Administration
                                                                                Sample      Point           95-Percent
  Estimate Description
                                                                                  Size   Estimate   Confidence Interval

  Of grantees with quality assurance programs, percentage that reported that
  staff from the Health Resources and Services Administration (HRSA) reviewed     139      93.7%            88.4–96.6%
  their overall quality assurance program


  Of grantees that conduct assessments, percentage that reported that HRSA
                                                                                  135      85.7%            78.9–90.6%
  staff reviewed their assessments

Source: OIG analysis of medical record review, 2011.




  OEI-09-06-00420                  Quality Assurance and Care Provided at Health Centers
Page 39 – Mary K. Wakefield, Ph.D., R.N


APPENDIX D
Detailed Methdology
This evaluation assessed the extent to which health centers maintained required quality
assurance programs and health center patients received necessary primary health services.
We also examined the Health Resources and Services Administration’s (HRSA)
oversight of the required primary health services provided in health centers. To examine
required primary health services, we reviewed medical records for a sample of health
center patients with at least two patient encounters between January 1, 2006, and
December 31, 2007, including at least one encounter in the last 6 months of 2007. 59 We
expected that patients with fewer visits were less likely to use the health center as a
regular source of care and, therefore, would be less likely to have medical records
available for review.


Data Collection and Analysis
Our sample of 448 health center patients was selected from a stratified random sample of
147 health center grantees (explained in more detail in the sample selection section
below). We reviewed primary health services that would be relevant for a broad base of
health center patients regardless of age, gender, or health history, in particular:
•    preventive health exams,
•    vaccinations,
•    referrals for specialized treatment, and
•    dental services.


To assess quality assurance programs, we surveyed the same sample of 147 health center
grantees about their quality assurance programs. We requested information about the
content of quality assurance programs and health center grantees’ periodic service
assessments.


Finally, to assess HRSA oversight, we held several meetings and calls with HRSA staff,
including staff from the Bureau of Primary Health Care and the Office of Performance
Review, to request Uniform Data System (UDS) data and to discuss UDS reporting, grant
reviews, and performance reviews.



59
   Nationally, the average number of encounters per health center patient in 2007 was 3.9. The Health
Center Program: 2007 National Aggregate UDS Data. Accessed at
http://www.bphc.hrsa.gov/uds/2007data/national/nationaltable2.htm on August 11, 2010.


OEI-09-06-00420          Quality Assurance and Care Provided at Health Centers
Page 40 – Mary K. Wakefield, Ph.D., R.N


Sample Selection
Health Center Selection. Using HRSA data, we selected a stratified random sample of
150 health center grantees that (1) were funded in 2005, (2) still operating in 2006, and
(3) had received a performance review between 2004 and 2006. 60, 61 HRSA’s onsite review
process for health center grantees changed after 2003. To ensure that all health centers in
our sample had participated in HRSA’s then-current review and oversight process, we
limited our review to health centers that received a performance review. Health center
grantees were stratified by the size of their patient population. One stratum consisted of the
population of the 75 largest health centers, based on number of patients; we included all of
the 75 largest health centers in our sample. The other stratum consisted of the remaining
population of 315 health centers, from which we randomly selected 75. 62 After excluding
three of the sampled health center grantees because of ongoing Office of Inspector General
(OIG) investigations, we sent letters and information requests to the remaining 147 health
center grantees.


Patient Selection. We requested information about patient encounters from the
147 sampled health center grantees to select a sample of patients for medical review. We
sent letters to each of the sampled health center grantees to request that they provide
information about patient encounters in 2006 and 2007. The letters requested that the
health center grantees provide the name, identification number, and date of birth for all
patients with at least one encounter, at any of their health center sites, in the last 6 months
of 2007. 63 For each of these patients, we also requested the number of encounters at the
health center in 2006 and, separately, in 2007. We received patient lists from 142 of the
health center grantees. We used this information to select a sample of patients whose
medical records we collected for review.




60
   HRSA reported it had 1,002 health center grantees in 2006. 2006 National Aggregate UDS Data:
Table 2. Accessed at http://bphc.hrsa.gov/uds/2006data/national/nationaltable2.htm on December 7, 2010.
61
   Approximately 41 percent of health centers operating in 2006 met these criteria.
62
   The number of patients was based on 2005 UDS data.
63
   When requesting information about patients from health center grantees, we instructed them to use the
definition of patient encounters included the 2007 Uniform Data System Reporting Manual. HRSA’s 2007
UDS Reporting Instructions for Section 330 Grantees defines encounters as “face-to-face contacts between
a patient and a provider who exercises independent professional judgment in the provision of services to
the patient. To be included as an encounter, services rendered must be documented in the patient’s record.”
Encounters do not include large-scale efforts such as group immunizations, screening programs, or
communitywide programs such as health fairs. Furthermore, the provision of laboratory tests, x-rays,
immunizations, tuberculosis tests, and prescription refills are not counted as encounters if not accompanied
by an additional service.


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 41 – Mary K. Wakefield, Ph.D., R.N


From the 142 health centers from which we received patient lists, we selected a sample of
490 patients. We used the following procedure for selecting patients with at least two
health center encounters within 2 years:
•   If the health center grantee was able to provide patient encounter information for 2006
    and 2007, we randomly selected three patients from among all patients with at least
    two encounters between January 1, 2006, and December 31, 2007, including at least
    one encounter in the last 6 months of 2007. We selected three patients from each of
    78 health center grantees that provided encounter information for a total of
    234 patients.
•   If the health center grantee was not able to provide patient encounter information for
    2006 and 2007, we randomly selected four patients from among all patients with at
    least one encounter in the last 6 months of 2007. We selected an extra patient from this
    group of grantees to increase the likelihood that at least three patients from each health
    center would have been seen in the health center at least twice between
    January 1, 2006, and December 31, 2007, including at least one encounter in the last
    6 months of 2007. We selected 4 patients from each of 64 health center grantees that
    did not provide encounter information, for a total of 256 patients.


Patient records. Of the 490 sampled patients, we determined that 36 were ineligible (not
part of our intended target population) because their records did not document at least
2 patient encounters at the health center between January 1, 2006, and December 31, 2007,
including at least 1 between July 1 and December 31, 2007. Of the 454 remaining patients,
we received records for 448 (99 percent). We included 448 patient records in at least 1 of
the analyses. However, we excluded a small number of patients from the overall and
individual analyses if reviewer notes indicated that the health center offered services, but
the services were refused by either the patient or the patient’s parent. No more than seven
patients were excluded from any single analysis due to patient refusals. We collected
medical records for the sampled patients in September 2008, so services provided through
that time could have been included in our medical review.


Medical Review of Health Center Records
We worked with a medical review contractor that contracted with three physicians and three
dentists, all with current and/or prior health center experience, to review the status of
primary health services among patients in four categories. Using information about
patients’ health status and medical history, they determined whether each patient




OEI-09-06-00420      Quality Assurance and Care Provided at Health Centers
Page 42 – Mary K. Wakefield, Ph.D., R.N


received necessary services. 64 We developed a medical review instrument, 65 with feedback
from the medical reviewers, to assess:
•    preventive health exams 66 (e.g., hearing 67 and vision exams, weight and blood pressure
     checks, and cholesterol screenings),
•    vaccinations (e.g., polio; influenza; pneumococcal; measles, mumps, rubella; varicella
     (chicken pox); and diphtheria, tetanus, pertussis),
•    referrals for specialized treatment (e.g., allergy, behavioral health, dermatology, HIV
     testing and/or treatment, health education, nephrology, nutritionist services,
     ophthalmology/optometry, and orthopedics), and
•    dental services (e.g., dental exams, cleanings, fillings, and x-rays).


We pretested the review instrument and shared information among medical reviewers to
improve the consistency of reviews. Prior to the full sample review, we selected a separate
sample of grantees from which we requested a sample of patient records, to give medical
reviewers an opportunity to provide feedback on the review items and to check for
consistency among the reviewers. Medical reviewers reviewed the sample patient records
using a draft medical review instrument. We made changes to the review instrument
following the initial pretest and conducted a second pretest to give the medical reviewers an
opportunity to use the instrument before the full sample review. None of the pretest patient
records was included in the full sample review.




64
   In some cases, preventive health guidelines recommend against certain patients’ receiving specific
services, such as a vaccination, given their health status or medical history. In these cases, medical
reviewers would have determined that the status of this service was appropriate if the vaccine was not
given.
65
   We developed the medical review instrument based on preventive health guidelines issued by
organizations such as the U.S. Preventive Services Task Force, the American Academy of Pediatrics, and
the American Diabetes Association, among other national and professional associations.
66
   The term “preventive health exams” is not listed as a required primary health service pursuant to
42 U.S.C. 254b(b)(1)(A)(i)(I) and 42 CFR § 51c.102(h) or as a supplemental health service pursuant to
42 CFR § 51c.102(j). We use this term broadly to encompass a variety of preventive health services,
including screenings, examinations, and laboratory tests.
67
   Some of the health services assessed by our medical reviewers, such as hearing exams for adult patients,
are not explicitly listed as required primary health services pursuant to 42 U.S.C. 254b(b)(1)(A)(i)(I) and
42 CFR § 51c.102(h) or as supplemental health services pursuant to 42 CFR § 51c.102(j). However, we
included these services in our review because they have been recommended in guidance issued by national
and/or professional health care associations for the general population and/or for individuals in certain age
groups or with particular health conditions.


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 43 – Mary K. Wakefield, Ph.D., R.N


During the full sample review, a single medical reviewer made the final assessment about
the services received by each health center patient. The medical review contractor
distributed the patient records among the medical reviewers. We encouraged the medical
reviewers to seek feedback from one another during the course of the review and instructed
the medical review contractor to share any new information and guidance with all
reviewers. However, the final assessment of each record was made by a single physician
reviewer and/or dental reviewer, as appropriate. 68


Using the medical review instruments, reviewers assessed the services received by patients.
For each type of service (i.e., preventive health exams, vaccinations, referrals, and dental
services), reviewers first assessed the adequacy of individual exams and services, such as
hearing exams, polio vaccinations, referrals for allergy treatment, and dental fillings. 69
After assessing the individual exams and services within each type of service, medical
reviewers made an overall assessment about the adequacy of each type of service. 70 A
reviewer’s assessment that services were adequate did not necessarily indicate that the
health center provided these services to the patient, but rather the reviewer’s judgment that,
based on available documentation, the patient had at some point received care that was
consistent with established guidelines and did not go without a necessary service.


Medical reviewers made overall assessments based on both the number and potential
consequence of individual exams or services within each type of service they determined to
be adequate. For example, a medical reviewer could have determined that omission of
vision and blood pressure exams reflected inadequate overall preventive health services for
a patient with diabetes, but not for a patient without diabetes. Reviewers generally
determined that services were inadequate if, based on their judgment:
•    services needed by the patient were not offered,



68
   Only those records that contained documentation of dental services at the health center were distributed
among the dental reviewers.
69
   On the medical review instrument, when assessing each of the individual preventive health exams,
vaccinations, referrals, and dental services, reviewers determined whether services were “appropriate,”
“inappropriate” or, because of the patients’ age or gender, “not applicable.” On the medical review
instrument, inappropriate services were those that, in their judgment, were inadequate based on the
patients’ history and health status. Reviewers also indicated whether they could not determine the
appropriateness of individual services generally, because documentation in the patient’s record was
incomplete.
70
   On the medical review instrument, reviewers indicated whether, overall, each type of service was
“appropriate” or “inappropriate.” Medical reviewers determined that a type of service was “inappropriate”
based on the patients’ history and health status. Reviewers also indicated whether they could not determine
the appropriateness of services overall because documentation in the patient’s record was incomplete.


OEI-09-06-00420          Quality Assurance and Care Provided at Health Centers
Page 44 – Mary K. Wakefield, Ph.D., R.N


•    services needed by the patient were not provided in a timely manner, or
•    unnecessary services were provided to the patient.

Medical reviewers also indicated whether they were unable to determine the adequacy of
individual or overall services in any of the four areas. Reviewers could not determine the
adequacy of services when documentation of services received or patient health and/or risk
factors was insufficient. Cases with insufficient documentation were not included in the
cases determined to be either adequate or inadequate.


We directed the medical reviewers to base their judgments on their professional experience
at health centers. Although we referred to established preventive health guidelines in
developing the review instrument, we did not direct medical reviewers to use specific
practice standards (with the exception of the Recommended Immunization Schedules issued
by the Centers for Disease Control and Prevention (CDC)) to determine whether patients
received necessary services. We instructed medical reviewers to be conservative in their
assessments, and in the event that existing preventive health guidelines were inconsistent, to
base their assessment on the least-stringent standards.


Analysis. We conducted all analyses separately for patients in different age groups. For
vaccinations, we conducted separate analyses for each of the following age groups: 0–18,
19–49, and 50 and older. 71 For each of the other service types, we conducted separate
analyses for pediatric patients (aged 0–18) and adult patients (aged 19 and older). The
results of the medical review are projected to a subset of all health center patients. 72
Appendix C lists the confidence intervals for all medical review statistics presented in this
report.


Survey of Health Center Grantees
We surveyed health center grantees and collected documentation related to their quality
assurance programs between January and April 2008. We sent surveys to the 147 sampled
health center grantees and received completed surveys from 141 (96 percent). The first part
of our survey collected information about quality assurance programs and the periodic

71
   CDC issues separate Recommended Immunization Schedules for patients aged 0–6,
7–18, 19–49, 50–64, and 65 and up. We combined all pediatric patients into a single group and patients
aged 50 and older into a single group for analysis because of the relatively small number of patients in our
sample from the youngest and oldest groups.
72
   The results are projected to patients with at least two patient encounters between January 1, 2006, and
December 31, 2007 (including at least one in the last 6 months of 2007), at health centers that (1) were
funded in 2005, (2) still operating in 2006, and (3) had received a performance review between 2004 and
2006.


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 45 – Mary K. Wakefield, Ph.D., R.N


service assessments required under these programs. The survey requested that grantees
respond to a series of questions about their “internal reviews of health center services.”
Grantees provided information about the frequency and focus of their assessments and the
method of selection of medical records used during the assessments.


The second part of the survey collected information about which, if any, of a list of
approximately 70 elements was addressed by grantees’ quality assurance programs. We
identified these elements after reviewing HRSA program requirements and expectations,
materials developed by the National Association of Community Health Centers on quality
assurance programs, and quality assurance documents collected from health centers during
pretesting. 73, 74


Analysis. We analyzed health center grantees’ survey responses about their quality
assurance programs to determine whether health center grantees:
•    maintained quality assurance programs,
•    conducted periodic assessments of their services,
•    reviewed medical records as part of their periodic assessments, and
•    included specific elements in their quality assurance programs.


Limitations
Assessments of health center services in this report are based on the professional judgment
of medical reviewers. By their nature, medical reviews involve some subjectivity.
Differences in training and certification could result in differences in judgment. We
conducted two pretests and made modifications to the review instrument to better
standardize the medical review process.


The medical review did not address health services that patients may have received from
other health providers. Generally, the medical review results are based on documentation of
services received or needed during encounters at health centers. In some cases, health
center patients may have received services from other health providers. Unless documented

73
   National Association of Community Health Centers, The Role of the Health Center’s Board of Directors
in Establishing a Quality Assurance Program, March 2003. Accessed at
http://www.nachc.com/client/documents/publications-resources/gov_3_03.pdf on
August 30, 2011.
74
   Prior to our full sample data collection, we visited two health center grantees to discuss our evaluation
and to request information about their quality assurance process. We also mailed our survey to and
requested documentation related to quality assurance programs from five other health center grantees.


OEI-09-06-00420           Quality Assurance and Care Provided at Health Centers
Page 46 – Mary K. Wakefield, Ph.D., R.N


in health center records, this information was not available to medical reviewers and,
therefore, not incorporated into medical reviewers’ assessments of patients’ receipt of
services.


We did not verify survey responses concerning grantees’ quality assurance programs or
their scheduled or completed periodic assessments of health services. Grantees completed
survey questions about the development, maintenance, and review of their quality assurance
programs and their periodic assessments of health services. Features of health center
grantees’ quality assurance programs, such as schedules and summaries of periodic
assessments, clinical guidance, and risk management practices, often were not included in
the written quality assurance program documents we collected from health center grantees.
Verifying information related to quality assurance programs, in many cases, would have
required reviewing general policy and procedures manuals, which we did not request health
center grantees to do.




OEI-09-06-00420       Quality Assurance and Care Provided at Health Centers
Page 47 - Mary K. Wakefield, Ph.D., R.N


APPENDIXE

Agency Comments

 ~------------------------------------------~------~~



              DEPARTMENT OF HEAI.TH            &;   HUMAN SERVICES
                                                                                           Healtn Resources and Services
              --.-   -   -- .,-   -   --.~ - -- - '~ -     - "-   - --   -- -.._   - --_.- Administfation
                                                                                            - -"'-'-" -. - -

                                                                                          Rockville. MD 20857




              TO:                 lnsp;:clor General

              FROM :              Administrator

              SI ; BJECT;         OIG Dra ft Report: "Quality Assurance and Care Prov ided al JIRSA.
                                  Funded I lealth Cenler~" (OEI·09.06·00420)


              AltHched is the lIealth Resources and Servi\;o:s Administration's (llRSA) response to the
              OIO's dmfi rcp0l1. " Quality Assurance and Care Provided at HRSA·Funded Health
              Centers" (01:::[.09-06.00420). If you have any questions, please contact Sandy Seaton ill
              HKSA ' s Ollicc of Federal Assistance Management at (301) 443-2432.

                                                                         /S/
                                                                  Mary K. Wakefield. Ph.D., R.N.

              Allachmelll




OEI-09-06-00420      Quality Assurance and Care Provided at Health Centers
Page 48– Mary K. Wakefield, Ph.D., R.N




OEI-09-06-00420    Quality Assurance and Care Provided at Health Centers
Page 49 – Mary K. Wakefield, Ph.D., R.N




OEI-09-06-00420    Quality Assurance and Care Provided at Health Centers
Page 50– Mary K. Wakefield, Ph.D., R.N




OEI-09-06-00420    Quality Assurance and Care Provided at Health Centers
Page 51 – Mary K. Wakefield, Ph.D., R.N




OEI-09-06-00420    Quality Assurance and Care Provided at Health Centers
Page 52 – Mary K. Wakefield, Ph.D., R.N




OEI-09-06-00420    Quality Assurance and Care Provided at Health Centers
Page 53 – Mary K. Wakefield, Ph.D., R.N




OEI-09-06-00420    Quality Assurance and Care Provided at Health Centers
Page 54 – Mary K. Wakefield, Ph.D., R.N




OEI-09-06-00420    Quality Assurance and Care Provided at Health Centers
Page 55 – Mary K. Wakefield, Ph.D., R.N




OEI-09-06-00420    Quality Assurance and Care Provided at Health Centers
